W                                                                           May 13,1999


TO:              Distribution

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on Exemptions for Year 2000 Testing, Johnson Space Center
                 Audit Assignment A9900800
                 Report Number IG-99-025

The subject final report is provided for your use. Please refer to the Results in Brief for the
overall audit results. We have incorporated your comments into the final report, as appropriate,
and included them in their entirety as an appendix to our report. Our evaluation of your
comments is included in the body of the report. The corrective actions taken or planned for
recommendations 1 through 4 were responsive. Please provide us with the documented
procedures that you used to implement the recommendations. All of the recommendations are
undispositioned and will remain open pending receipt of documented procedures.

If you have questions concerning the report, please contact Mr. David L. Gandrud, Program
Director, Information Technology Program Audits, at (650) 604-2672, or Ms. Bessie J. Cox,
Auditor-in-Charge, at (281) 483-5271. We appreciate the courtesies extended to the audit staff.
The final report distribution is in Appendix F.

[Original signed by]


Russell A. Rau

Enclosure
                                              2
cc:
B/Chief Financial Officer
G/General Counsel
M/Associate Administrator for Space Flight
JM/Director, Management Assessment Division
                                                                                 3
bcc:
AO/Audit Liaison Representative
ARC/204-11/D. Gandrud, Program Director, Information Technology Program Audits
JSC/BD/Audit Liaison Representative
JSC/W-JS/B. Cox, Auditor
AIGA, IG, Reading (w/o Encl.) Chrons
                                                        IG-99-025




AUDIT
                           EXEMPTIONS FOR YEAR 2000 TESTING,
REPORT                          JOHNSON SPACE CENTER
                                       MAY 13, 1999




                               OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this audit report, contact the Assistant Inspector General for
Auditing at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

       Assistant Inspector General for Auditing
       NASA Headquarters
       Code W, Room 8V69
       300 E Street, SW
       Washington, DC 20546-1000


NASA Hotline

To report fraud, waste, or abuse, contact the NASA OIG Hotline at (800) 424-9183, (800) 535-
8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html, or write to the NASA Inspector
General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The identity of each
writer and caller can be kept confidential, upon request, to the extent permitted by law.



Acronyms

CIO            Chief Information Officer
FMD            Financial Management Division
IT             Information Technology
Y2K            Year 2000
                         NASA Office of Inspector General

IG-99-025                                                                    May 13, 1999
 A9900800

                        Exemptions for Year 2000 Testing,
                            Johnson Space Center

Introduction

The NASA Office of Inspector General is conducting an audit of the Year 2000 (Y2K)
implementation phase. The overall objective of the audit is to determine whether NASA has
effectively managed the implementation of Y2K compliant systems. See Appendix A for the
specific audit objectives. Although not specifically related to the audit objectives, we
identified a condition at the Johnson Space Center (Johnson) that may adversely affect the
Agency’s Y2K efforts. See Appendix B for audit reports on Y2K matters issued by the
NASA Office of Inspector General.

Results in Brief

Johnson’s Financial Management Division (FMD) had not requested an exemption from the
NASA Y2K Agency Testing and Certification Guidelines and Requirements (NASA guidance)
for the Center Financial System. In the absence of an exemption to the July 1998 guidance,
the Johnson Chief Information Officer (CIO) has no basis on which to assess the adequacy of
testing the FMD performed on the Center Financial System prior to issuance of the guidance.
Accordingly, the Agency lacks assurance that the Center Financial System will meet the
minimum requirements for Y2K compliance.

Background

In August 1996, NASA initiated the Y2K program to address the challenges imposed on
Agency software, hardware, and firmware∗ systems by the new millennium. The Agency
program is centrally managed by the NASA CIO, with decentralized execution of program
requirements at each of the NASA Centers, Headquarters, and the Jet Propulsion Laboratory.

In January 1997, the Office of Management and Budget required all Federal agencies to adopt
the General Accounting Office, five-phase model for implementing the Y2K program. Those
phases (awareness, assessment, renovation, validation, and implementation) are defined in
Appendix C.
On July 2, 1998, the NASA CIO issued the NASA guidance. The objectives of the guidance
were to (1) provide general guidance and requirements for Y2K certification and testing and
∗
 Firmware systems are the computer programs that are permanently stored in a hardware
device.
(2) establish required minimal Y2K test criteria and certification processes for NASA
inventory items.

Johnson planned to use the NASA guidance to ensure that all Johnson information technology
(IT) systems would be certified Y2K compliant by March 31, 1999. The plan required
Johnson organizations to perform tests commensurate with the risk level and the probability of
problem occurrence for their respective IT systems.

The FMD is responsible for providing internal controls to safeguard assets, ensuring that bills
are processed for goods and services, promoting the accuracy and reliability of financial data,
and encouraging adherence to approved NASA financial management policies. FMD provides
the following functions:

   •   Funding and internal controls
   •   Accounts payable
   •   Travel funding and claims
   •   Labor and payroll
   •   Accounts receivable
   •   Resources control and reimbursables
   •   Collections
   •   Cost accounting
   •   Property and accounting control

The FMD is responsible for assessing, renovating, validating, and implementing the Center
Financial System to ensure Y2K compliance. The Center Financial System is a Johnson
mission-critical system that includes 21 separate modules. See Appendix D for a list of the
21 modules. The modules provide the processing support needed by FMD to perform the
above systems and functions.

Request for Exemption From NASA Guidance

Finding. The FMD completed its tests of the Center Financial System before NASA issued
the July 1998 guidance, but had not submitted a request for exemption from the guidance.
This condition occurred because the Johnson CIO had not established procedures to
implement the exemption process. Without the exemption, the Johnson CIO lacks reasonable
assurance that the Center Financial System will meet the minimum testing requirements for
Y2K compliance.

NASA Guidance. The NASA guidance describes the process for testing and certifying
inventory items for Y2K compliance. Specifically, it requires organizations to prepare test
plans and procedures regarding the levels of testing, test criteria, and test procedures. The
guidance requires organizations to document the test results in a test report or completed
Y2K checklist for each inventory item tested.




                                               2
The NASA guidance makes NASA Centers responsible for identifying items to be assessed,
renovated, validated, and certified Y2K compliant. A NASA inventory item may be an IT
system, non-IT system, application, hardware component, software component, firmware, or
a commercial-off-the-shelf product. An inventory item may be a combination of custom
software, hardware, and commercial-off-the-shelf products, or any component item.

The NASA guidance states that an exemption from required testing may be granted for
inventory items for which testing had been completed before July 2, 1998, if the items meet
the following criteria:

     •   The test approach for the inventory item met the minimal test requirements and
         criteria established in the guidance, commensurate with the level of risk of the
         inventory item.
     •   Processes followed for the inventory item testing met the intent of the guidance
         through comparable test and certification processes.

The Center CIO Representative and Center Y2K Project Manager must assess an
organization’s request for exemption. If approved, the Center CIO must then report the
approval action to the NASA Y2K Program Manager.

Johnson Y2K Actions for the Center Financial System. During the initial assessment and
subsequent reassessment of IT systems, Johnson identified the Center Financial System as a
mission-critical inventory item. FMD personnel began assessing the system in January 1997;
completed renovation and validation testing in April 1998 and May 1998, respectively; and
implemented the system in June 1998.

The FMD prepared a Y2K test plan in January 1997, before NASA issued its testing
guidance. Accordingly, the plan did not reference the required test levels, test criteria, and
test procedures. As a “reasonableness check” on the adequacy of Y2K tests previously
performed, FMD personnel completed a Y2K checklist taken from the then draft NASA
guidance, for each of the 21 modules that made up the Center Financial System. However,
neither the contractor personnel who performed the testing nor a Johnson manager could
support the results of the checklist reviews. Without documentation supporting the answers
on the checklists, we could not determine the adequacy of Y2K testing performed or whether
it met NASA requirements. Similarly, NASA management has no assurance that sufficient
testing was performed.

Since Johnson completed testing of the Center Financial System before NASA issued its
guidance, FMD personnel should have requested an exemption from the guidance if prior
testing satisfied the intent of the guidance. FMD personnel made no such request because
Johnson had not established procedures for requesting exemptions. Without such procedures,
FMD personnel were unaware of the need to request an exemption or of possible
shortcomings in the testing performed.




                                               3
Recommendations, Management’s Comments, and Evaluation of Response

The Director, Johnson Space Center should:

       1. Establish procedures for processing exemptions of IT inventory items for
          which testing was completed before July 2, 1998.

       2. Require Johnson organizations to submit exemption requests for all systems
          for which testing was completed before July 2, 1998.

       3. Approve only those exemption requests that satisfy the minimum testing and
          documentation requirements set forth in the NASA guidance.

       4. Require organizations to perform validation testing required by the NASA
          Y2K Agency Testing and Certification Guidelines and Requirements for any
          inventory item that (1) had been tested before the guidance was issued, and
          (2) did not meet minimum testing requirements set forth in the NASA
          guidance.

Management’s Comments. Concur. Management stated that the recommendations either
had been implemented or will be implemented. The complete text of management’s response
is in Appendix E.

Management took exception to the report statement “In the absence of an exemption to the
July 1998 guidance, the Johnson Chief Information Officer (CIO) has no basis on which to
assess the adequacy of testing the FMD performed on the Center Financial System prior to
issuance of the guidance.”

Management cited the following reasons for believing that remediation of the Center Financial
System was successful.

   •    Two formal Y2K reviews, chaired by the Johnson CIO, had covered the
        Center Financial System remediation effort and the results of that effort.
   •    The Johnson Program Management Council had conducted two Y2K
        reviews.
   •    Officials involved in the Y2K issue had held numerous discussions regarding
        remediation of the Center Financial System.
   •    The Y2K working group held frequent discussions regarding remediation of
        the Center Financial System.
   •    Johnson had successfully used the remediated software for the last 9 months.




                                              4
Evaluation of Response. Management’s comments are fully responsive to the
recommendations. The actions planned and taken should ensure that all Johnson
systems that completed testing before NASA issued its guidance in July 1998 will
meet minimum Y2K testing requirements.

We maintain that until Johnson establishes and implements an exemption process, the Johnson
CIO has no basis on which to assess the adequacy of pre-July 1998 testing that FMD
personnel had performed on the Center Financial System. Although Johnson officials had
formally reviewed and discussed remediation actions for the Center Financial System,
available documentation showed no evidence that FMD had met the minimum testing
requirements stated in the NASA guidance.




                                             5
                   Appendix A. Objectives, Scope, and Methodology

Objectives

Our overall objective in this ongoing audit is to determine whether NASA has effectively
managed the implementation of Y2K compliant systems. Specifically, we are evaluating the
adequacy of:

         •    acceptance testing;

         •    contingency and disaster recovery planning;

         •    the validation process for information received from data exchanges; and

         •    change/version control over renovated systems migrating into the production
              environment.

As part of the overall objective, we assessed the adequacy of the testing performed on
Johnson’s Center Financial System to determine whether the system had been fully tested and
was Y2K compliant. Implementation of Y2K compliant systems and their components
requires extensive testing to ensure that all converted or replaced system components perform
adequately in an operational environment.

Scope and Methodology

During the audit, we:

     •       Reviewed available documentation, dated January 1997 through March 1999, at
             Johnson, that supported validation testing for 4 mission-critical systems and 31 non-
             mission-critical systems. (Johnson has a total of about 400 mission-critical and non-
             mission-critical systems.) The Center Financial System was the only system we
             reviewed at Johnson for which testing had been completed before the Agency issued
             the July 2, 1998, guidance.

     •       Interviewed Y2K representatives at NASA Headquarters and Johnson to determine
             the processes and procedures used for ensuring Y2K compliance.

Management Controls Reviewed

We reviewed initial Y2K guidance and the related processes and procedures Johnson used to
test and implement IT systems. In addition, we tested those controls to verify that the
controls were working as described. Based on work done on this continuing audit, we found
one deficiency, as noted in the finding.



                                                  6
Appendix A

Audit Field Work

We performed the audit field work for this report from November 1998 through February
1999. We conducted the audit in accordance with generally accepted government auditing
standards.




                                            7
                    Appendix B. Summary of Prior Coverage


The NASA Office of Inspector General has issued two reports relating to Y2K compliance.
These reports are summarized below.

“Year 2000 Date Conversion – Assessment Phase,” IG-98-040, September 30, 1998.
Some NASA Centers did not have documented support for Y2K cost estimates reported to
OMB and did not prepare estimates using a consistent methodology. Also, documentation did
not always exist to support the manner in which Center assessments and decisions for Y2K
compliance were conducted. The audit showed that NASA Centers also needed to improve
the sharing of information on the status of Y2K compliance associated with commercial
off-the-shelf products. We made three recommendations to assist NASA in addressing the
Y2K date conversion problem. Management concurred with the two recommendations
concerning documentation for Y2K assessments and the sharing of information on commercial
off-the-shelf products. Management did not concur with the recommendation concerning
guidance for Y2K cost estimates, stating that adequate guidance on cost estimation had been
provided to NASA Centers. We reaffirmed our position on this recommendation and
requested additional comments in the final report.


“Year 2000 Program Oversight of NASA Production Contractors,” IG-99-004,
December 17, 1998. NASA lacks reasonable assurance that its production contractors will
provide Year 2000-compliant data to support the Agency’s key financial and program
management activities. This condition occurred because NASA had not asked the Defense
Contract Audit Agency and the Defense Contract Management Command to conduct Y2K
reviews at NASA’s major contractor locations. As a result, NASA risks using noncompliant
data that may adversely affect the Agency’s control, budgeting, program management, and
cost accounting activities. We made two recommendations to NASA relating to the Y2K
status of its major contractors. Management concurred with the intent of the
recommendations and issued a letter to the Defense Contract Audit Agency requesting data
on Y2K coverage at the Agency’s major contractors. In addition, NASA issued a letter to its
Center Procurement Officers instructing them to monitor Y2K problems identified by the
Defense Contract Audit Agency.




                                             8
             Appendix C. Definitions of Five-Phase Model for Y2K

Awareness                 •   Define the Y2K problem and gain executive-level support
                              and sponsorship.
                          •   Establish a Y2K program team and develop an
                              overall strategy.
                          •   Ensure that everyone in the organization is fully
                              aware of the activity.
Assessment                •   Assess the Y2K impact on the Enterprise.
                          •   Identify core business areas and processes, inventory and
                              analyze systems supporting the core business areas, and
                              prioritize their conversion or replacement.
                          •   Develop contingency plans to handle data exchange issues,
                              lack of data, and bad data.
                          •   Identify and secure the necessary resources.
Renovation                •   Convert, replace, or eliminate selected platforms,
                              applications, databases, and utilities.
                          •   Modify interfaces.
Validation                •   Test, verify, and validate converted or replaced platforms,
                              applications, databases, and utilities.
                          •   Test the performance, functionality, and integration of
                              converted or replaced platforms, applications, databases,
                              utilities, and interfaces in an operational environment.
Implementation            •   Implement converted or replaced platforms, applications,
                              databases, utilities, and interfaces.
                          •   Implement data exchange contingency plans, if
                              necessary.




                                         9
        Appendix D. Modules Included in the Center Financial System

Basic Accounting System, Modules 1 through 4—System used to maintain detail and summary
history files for the fiscal year.

Cash Management System—Automated system used to approve and process vendor invoices
for payment.

Central Budget System—System that allows budget planning and provides budget status.

Civil Service Labor Distribution System—System that processes all Johnson employee labor
distribution data on a biweekly frequency in a batch mode and that provides labor cost to the
Interactive Basic Accounting System database by Primary Work Code.

Contractor Cost Accrual System—Financially structured database that permits both budget
analysts and cost accountants to report cost and workforce information on selected contracts
and purchase orders.

Financial and Contractual Status—System that reports contract performance and other
information regarding the procurement and financial impacts for business agreements as a
result of Johnson operations.

Financial Management Division Forms—System used for printing reimbursable billings.

Interactive Basic Accounting System, Modules 1 through 5—Primary Johnson online interactive
system used by FMD to enter and retrieve all types of funding.

Interactive Consolidated Financial Accounting System—Single, integrated, and consolidated
source for financial analysis and reporting at all stages of the Johnson budget execution cycle,
from program authorization to fund disbursement.

Job Order Cost System—Application developed for cost and workforce accumulation to enable
monthly recording and tracking of contract cost and workforce performance.

NASA Personnel/Payroll System—Local code for selected reports only, including the Employee
Leave and Earnings Statement.

Resource Information Management System—Database driven reporting system used primarily to
maintain property records and to report specific data in funding allocations and payroll/labor
data.




                                               10
Appendix D

Subauthorization System—System that provides NASA Headquarters and Johnson management
with information on subauthorizations with other NASA centers.

UNYSIS Interactive Consolidated Financial Accounting System—Simple download program
between the Unisys systems and the Interactive Consolidated Financial Accounting System
database.




                                             11
Appendix E. Management’s Response




               12
Appendix E




             13
                         Appendix F. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

Code A/Administrator
Code AI/Associate Deputy Administrator
Code AO/Chief Information Officer
Code B/Chief Financial Officer
Code B/Comptroller
Code G/General Counsel
Code H/Acting Associate Administrator for Procurement
Code J/Associate Administrator for Management Systems and Facilities
Code JM/Director, Management Assessment Division
Code L/Associate Administrator for Legislative Affairs
Code M/Associate Administrator for Space Flight
Code R/Associate Administrator for Aero-Space Technology
Code R/Chief Information Officer Representative
Code S/Associate Administrator for Space Science
Code Y/Associate Administrator for Earth Science
Code Z/Associate Administrator for Policy and Plans

NASA Centers

Director, Ames Research Center
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, John F. Kennedy Space Center
 Chief Counsel, Kennedy Space Center
Director, Langley Research Center
Director, Lyndon B. Johnson Space Center
 Chief Information Officer, Johnson Space Center
Director, George C. Marshall Space Flight Center
Director, John J. Stennis Space Center

NASA Offices of Inspector General

Ames Research Center
Dryden Flight Research Center
John H. Glenn Research Center at Lewis Field
Goddard Space Flight Center
Jet Propulsion Laboratory
Lyndon B. Johnson Space Center
John F. Kennedy Space Center
Langley Research Center



                                            14
Appendix F cont’d

NASA Offices of Inspector General (Cont’d)

George C. Marshall Space Flight Center
John C. Stennis Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Assistant to the President and Chair, President’s Council on Y2K Conversion
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Budget Examiner, Energy Science Division, Office of Management and Budget
Associate Director, National Security and International Affairs Division,
 General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member -- Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                            15
Major Contributors to this Report

David L. Gandrud, Program Director, Information Technology Program Audits
Esther A. Judd, Program Manager
Bessie J. Cox, Auditor-in-Charge
Barbara J. Smith, Program Assistant
Nancy Cipolla, Report Process Manager
